Pension Benefit Guaranty Corporation
     Office of Inspector General




 Semiannual Report to the Congress
 April 1, 2002 – September 30, 2002
                                                                     Office of Inspector General

                                                                         October 31, 2002


The Honorable Elaine L. Chao
Chairman, PBGC Board of Directors

      It is my pleasure to submit this twenty-seventh Semiannual Report to the
Congress as the Acting Inspector General of the Pension Benefit Guaranty Corporation
(PBGC or Corporation) Office of Inspector General (OIG). This report summarizes the
major activities and accomplishments of our Office for the six-month period ending
September 30, 2002. Our accomplishments were made possible by the dedicated efforts of
a committed and professional staff.

        This was a period of great change for us: the PBGC Inspector General for thirteen
years, Wayne Robert Poll, retired and I became Acting Inspector General; we hired two
new staff members; we initiated some new activities in providing consulting services to
PBGC and in preventing fraud; and we worked very closely with PBGC officials on issues
affecting compliance with the accelerated date for issuing financial statement audits to
ensure that PBGC is timely.

       Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. Our Office issued six (6) reports in the audit area, including the
Management Letter related to the Audit of PBGC’s 2001 Financial Statements, and an
Audit Alert Memorandum communicating the agency’s need to develop corrective action
plans in response to audit recommendations.         We also continued our focus on
information technology security issues, which included conducting reviews and
communicating with PBGC regarding vulnerabilities and possible solutions.

       In the investigative area, we opened seven (7) and closed eleven (11)
investigations. Of the investigations we closed this period, four involved pension fraud.
We initiated Fraud Alerts, using the corporate e-mail, to raise employees’ awareness of
recent fraudulent activity and the OIG’s role in preventing and detecting fraud.

       To accomplish our mission, I have worked to establish productive professional
relationships with PBGC’s Executive Director and other Executives, managers,
employees, and the Congress. I have striven to highlight the OIG’s role to assist PBGC in
preventing and detecting fraud, waste and abuse by offering consultation and advisory
services on various Corporate initiatives. Our accomplishments have contributed to
improving PBGC’s programs and operations, and we look forward to continuing our
work with PBGC officials.


                                          Sincerely,




                                          Deborah Stover-Springer
                                          Acting Inspector General

Enclosure
SEMIANNUAL R EPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY


This is the twenty-seventh Semiannual Report to the Congress summarizing the activities
and accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of
Inspector General (OIG) for the period April 1, 2002 through September 30, 2002. This was a
period of great change for our office: our Inspector General for thirteen years, Wayne Robert
Poll, retired, we hired two new staff members, and we initiated some new activities in
providing consulting services to PBGC and in preventing fraud.

Our efforts were directed toward performing audits, inspections, and evaluations of the
Corporation's programs and operations; conducting several large and complex
investigations; and providing technical assistance and advice on Corporate programs.

In the audit area, we issued six (6) reports, including:

   •    FY 2001 Financial Statement Audit Management Letter (see page 2);
   •    Review of Sensitive Payments for FY 2001(see page 2)
   •	   Audit of PBGC’s Schedules of Appeals Closings for FY 1999 and 2000 (see
        page 3); and
   •	   PBGC Needs to Require Corrective Action Plans to Address Audit
        Recommendations (see page 3) .

After an extensive period of recruitment we were able to hire an information technology (IT)
specialist. Having this expertise on staff enabled the office to conduct more IT security
reviews, provide guidance on corrective actions for identified vulnerabilities, and liaison
with agency officials during preparation of the GISRA report to OMB.

In the investigative area, we opened seven (7) new investigative cases during the
reporting period and closed eleven (11) cases. Among the significant investigative
activity this period, we:

   •    Hired a new investigator;
   •	   Issued Fraud Alerts to PBGC personnel through the e-mail to increase
        awareness of particular fraud activities and the OIG’s role in fraud
        prevention (see page 8); and
   •    Closed four cases related to pension benefit fraud (see page 8).

During the period, we reviewed two sets of proposed regulations: (1) amendments
relating to PBGC’s compliance with the Government Paperwork Elimination Act
(GPEA) to remove barriers that might limit electronic filing with PBGC or electronic
issuances by PBGC; and (2) amendments relating to the “phase-in” period for PBGC’s
guarantee of pension benefits that are contingent upon a shutdown.

We also continued our advisory services to PBGC in various GPEA initiatives and
financial systems integration efforts, and began providing consulting services relating
to the redesign of PBGC’s premium accounting system.




SEPTEMBR 2002
                                                 i
SEMIANNUAL R EPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS

               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                 i

               TABLE OF CONTENTS ......................................................................               ii

               INTRODUCTION .................................................................................         1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ...........................................................................           2

                         Overview

                         Audits and Evaluations

                         Audit Follow-up and Resolution

                         Access to Information

                         PBGC Management - Inspector General Disagreements

                         Inspector General Reports


               INVESTIGATORY ACTIVITIES ........................................................                      7

                         Overview

                         Activity This Period

                         Significant Investigations

                         Summary of Investigative Activity


               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES ...........                                               10

                         Review of Proposed Statutory and Regulatory Changes

                         OIG and Agency Consultation

                         Congressional Requests

                         Liaison With the United States General Accounting Office


               APPENDIX ……………………………………………………………………………                                                                 12

                         Cross-Reference to Reporting Requirements of the
                            Inspector General Act
                         Reports Issued With Questioned Costs
                         Reports Issued With Recommendations That Funds
                             Be Put to Better Use
                         Open Recommendations

               GLOSSARY ...........................................................................................   20




SEPTEMBR 2002
                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



INTRODUCTION

THE PENSION BENEFIT GUARANTY CORPORATION
       The Pension Benefit Guaranty Corporation (PBGC or Corporation) was
       established under Title IV of the Employee Retirement Income Security Act of
       1974 (ERISA), as amended, 5 U.S.C. § 1301-1461, as a self-financing, wholly
       owned federal government corporation to administer the pension insurance
       program. ERISA requires that PBGC (1) encourage the continuation and
       maintenance of voluntary private pension plans; (2) provide for the timely and
       uninterrupted payment of pension benefits to participants and beneficiaries; and
       (3) maintain premiums at the lowest level consistent with carrying out PBGC's
       obligations.

       For about 44 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 268,600 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 2001 financial
       statement, the PBGC reported that it has assets of about $22.6 billion and
       liabilities of $14.7 billion.

THE OFFICE OF INSPECTOR GENERAL
       One of the strategic goals of the Office of Inspector General (OIG) is to assist the
       PBGC in operating more efficiently and effectively by identifying ways to improve
       PBGC's programs. To accomplish this goal, the OIG conducts agency audits,
       inspections, and investigations, and makes recommendations to and consults
       with PBGC management on findings and systemic issues. In addition, the OIG
       is required statutorily to inform the agency head of fraud and other serious
       problems, abuses, and deficiencies relating to the programs and operations
       administered or financed by the PBGC, recommend corrective action concerning
       such problems, and report on the progress made in implementing corrective
       actions.

       There were many changes in the OIG staff during this period. The Inspector
       General retired after serving in the position since 1989, and we hired a new
       investigator and an information technology specialist in the audit area. Our OIG
       staff consists of twelve (12) employees, of which two are investigators and one is
       an administrative assistant.

       The Chief Financial Officers Act requires that a government corporation's
       financial statements be audited by the Inspector General, unless preempted by
       the General Accounting Office (GAO). The OIG contracted with an Independent
       Public Accountant (IPA) to perform the audit of the Corporation’s FY 2001 and
       FY 2002 financial statements.




SEPTEMBER 2002                                                                     PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



AUDIT ACTIVITIES

OVERVIEW
       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funding. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued six (6) reports to help PBGC reduce
       costs and strengthen management controls. Below is a summary of reports; a
       matrix of the reports and results is at page 6. Our audits comply with GAO’s
       Government Auditing Standards, while the inspections comply with Quality
       Standards For Inspections published by the President's Council on Integrity and
       Efficiency.

AUDITS AND EVALUATION REPORTS
       FISCAL YEAR 2001 FINANCIAL STATEMENT AUDIT –
       MANAGEMENT LETTER (2002-6/23157-5)

       The OIG engaged PricewaterhouseCoopers, LLP to audit PBGC’s financial
       statements of the Single-Employer and the Multiemployer Fund for the fiscal
       years (FY) ended September 30, 2001 and 2000. In the previous reporting
       period, the OIG issued opinions on the financial statements and management’s
       assertion concerning the system of internal control, and a report on compliance
       with laws and regulations (see OIG Report 2002-3/23157-2 and discussion in
       our previous Semiannual Report to Congress).

       As a follow-on to the financial statement audit, we issued a management letter
       report with findings concerning several control conditions, including the need to:

       ♦	 Specifically identify administrative expenses to be paid from limitation funds,
          including documenting the allocation ratio and compliance with
          appropriation law, and develop fiscal year budgets using these identification
          methods.

       ♦	 Actively monitor derivatives activity by monitoring the custodian’s
          accounting and reporting activities and reconcile the custodian’s and the
          investment managers’ derivative inventories and positions monthly.

       ♦	 Improve information security by enhancing the organizational structure and
          developing and implementing specific policies and procedures.

       ♦	 Enhance controls regarding the PRISM Trial Balance Reconciliation process
          by strengthening review procedures.

       REVIEW OF SENSITIVE PAYMENTS

       FOR FISCAL YEAR 2001 (2002-10/23163)


       In conjunction with the annual financial statement audit, the OIG performed an
       audit of Sensitive Payments made to senior level officials in FY 2001. Sensitive
       Payments encompass a wide range of executive functions including executive
       compensation, travel, official entertainment funds, unvouchered expenditures,
       consulting services, speaking honoraria and gifts, and executive perquisites. In
       the area of travel, we noted some errors such as overdue travel vouchers and
       limited justification for actual expense.


SEPTEMBER 2002                                                                   PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       AUDIT OF PBGC’S SCHEDULES OF APPEALS
       CLOSINGS FOR FISCAL YEARS 1999 AND 2000
       (2002-11/23154)

       This audit continued work requested by the leadership of the Special Committee
       on Aging and Committee on Small Business and Entrepreneurship of the United
       States Senate. The Committees asked that we review the results of pension plan
       participants’ appeals of pension benefit determinations issued by PBGC.
       Specifically, they were interested in how many benefit determinations were
       “successfully” appealed, i.e., the appeals decisions resulted in a benefit
       determination more favorable to the participant than PBGC’s original benefit
       determination.

       In response to OIG’s request, PBGC issued Schedules of Closed Appeals for
       Fiscal Years (FY) 1999 and 2000. The number of appeals closed was 2005 in FY
       1999 and 1583 in FY 2000. Most of the closed appeals upheld PBGC’s benefit
       determinations. On the other hand, 17% in FY 1999 and 26.3% in FY 2000 of
       appeal decisions resulted in changes more favorable to participants, while 1% or
       fewer resulted in less favorable changes for participants. As a result of our
       testing, we conclude that PBGC’s assertions, as reported in the schedules, are
       fairly presented.

       PBGC NEEDS TO REQUIRE CORRECTIVE ACTION
       PLANS TO ADDRESS AUDIT RECOMMENDATIONS
       (2002-9/23167)

       We issued an Audit Alert Memorandum to communicate to PBGC its long
       standing need to develop Corrective Action Plans (CAP) in response to audit
       recommendations, and to express our concerns regarding PBGC’s compliance
       with external and internal requirements relating to CAPs. PBGC responded
       positively to this Alert Memorandum, developed a policy and procedure that
       incorporated OIG suggestions, and provided its first CAPs in response to the
       Financial Statement Management Letter audit (summarized above).


OTHER AUDIT ACTIVITY
       INFORMATION TECHNOLOGY

       After a thorough search, we hired an IT Audit professional with CISA credentials
       and over 25 years of experience. We feel that this will allow us to be more active
       in providing oversight of PBGC’s IT systems and activities. It will also provide us
       with the ability to better monitor system security.

       During this reporting period, we were active in evaluating systems security,
       particularly how well PBGC is protecting its systems from unauthorized access.
       We also reviewed general and application controls using FISCAM and NIST
       guidance in order to adequately address the questions presented by the
       Government Information Security Reform Act (GISRA). We coordinated our
       GISRA response with PBGC and jointly prepared our submission to OMB.

       FINANCIAL STATEMENT AUDIT

       A major Corporate endeavor is preparation of its Annual Report, which includes
       the financial statements and the auditor’s reports. The timetable for completing
       the Fiscal Year 2002 financial statement audit was accelerated to comply with


SEPTEMBER 2002                                                                    PAGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION


       the mandated January 31, 2003 reporting requirement. At PBGC, this meant
       that the audit would have to be completed approximately two months sooner
       than in prior years. This required both PBGC and the OIG to take a fresh look at
       the way the financial statement information prepared and the audit was
       conducted. To meet the deadline, we reevaluated our audit approach and
       identified audit work that could be completed earlier in the process. We
       negotiated a new delivery schedule with PBGC for audit deliverables. PBGC and
       the OIG have worked collaboratively to resolve issues as they arise. We have also
       made suggestions to the Corporation regarding adjustments to procedures that
       would facilitate meeting their current, as well as future, accelerated timeliness
       reporting requirements.

AUDIT FOLLOW-UP AND RESOLUTION
       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG. The OIG’s audit
       follow-up system documents and reports on management's actions to encourage
       prompt resolution of audit recommendations. We follow the Office of
       Management and Budget (OMB) Circular A-50 guidance that audit
       recommendations be resolved within six (6) months of issuance. An audit
       recommendation is resolved when agency management and the OIG reach
       agreement on firm plans of action to correct reported weaknesses. Resolution
       does not mean an audit recommendation is closed. The OIG closes audit
       recommendations only when it determines that corrective actions have been
       completed by the agency.

       In our Semiannual Listing of Audit Recommendations (OIG Report 2002-
       12/32105) we reported that there were forty-six (46) open audit
       recommendations, of which forty-four (44) were outstanding audit
       recommendations from prior reporting periods. The agency reviewed and
       reported to the OIG on their actions to address the recommendations. The OIG
       concurred that management had presented sufficient evidence to close two (2)
       audit recommendations. We reported that forty-four (44) audit recommendations
       remained open on September 30, 2002 (Semiannual Report on Follow-up of Audit
       Recommendations, OIG Report 2002-13/32106). A number of these
       recommendations remain open pending review during this year’s financial
       statement audit. We continue to meet with departmental officials to discuss the
       outstanding recommendations and provide guidance on actions necessary to
       close them.




SEPTEMBER 2002                                                                  PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




ACCESS TO INFORMATION
       Under the Inspectors General Act, the Inspector General is to have unfettered
       access to all agency records, information, or assistance when engaged in an
       investigation or audit. Whenever access to requested records, information, or
       assistance is unreasonably refused or not provided, the Inspector General must
       promptly report the denial to the agency head.

       During this six-month reporting period, the Inspector General’s access to
       information was not restricted.

PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
       Semiannually, the OIG reports on the status of all unresolved audit reports that
       are more than six months old.        These reports include: (1) reason(s) for
       unresolved reports and a timetable for their resolution; (2) actions taken or
       proposed on all unresolved reports or recommendations; and (3) age of
       unresolved recommendations.       For this reporting period, there were no
       unresolved audit reports in which PBGC management decisions are pending.
       As reported in prior periods, PBGC has disagreed with a recommendation
       contained in the Fiscal Year 1998 Financial Statement – Management Letter (99-
       8/23132-3). PBGC management commented on the Report and concurred “with
       its recommendations except for one item.”           PBGC disagreed with a
       recommendation which states that PBGC should “modify existing Insurance
       Operations Department (IOD) procedures to require retention of source
       documentation generated as a result of the participant data audits and used to
       calculate benefit payments and value the PVFB (Present Value of Future
       Benefits) liability.”

       The OIG feels strongly that in order for PBGC to adequately manage its program
       and to ensure the proper calculation of each participant’s guaranteed benefit, it
       is imperative that supporting documentation for all critical data elements be
       collected and retained.

       During the next reporting period, we will be reporting the results of our review of
       the accuracy of benefit determinations that PBGC issues to participants to the
       United States Senate’s Special Committee on Aging and Committee on Small
       Business and Entrepreneurship who requested this work. Our report will
       discuss the need to identify, acquire and retain source documentation for critical
       data elements. We will continue to work with PBGC management to resolve this
       disagreement.




SEPTEMBER 2002                                                                    PAGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                                         PENSION BENEFIT GUARANTY CORPORATION



                                                                 INSPECTOR GENERAL REPORTS*
                                                                 For The Six-month Period Ending
                                                                       SEPTEMBER 3, 2002

                                                                                 DOLLAR                 DOLLAR          DOLLAR             NUMBER OF
                                                                                VALUE OF               VALUE OF        VALUE OF          NONMONETARY
      REPORT                                                  DATE             QUESTIONED               BETTER        UNSUPPORTED      RECOMMENDATIONS
      NUMBER                    REPORT TITLE                 ISSUED              COSTS                USED FUNDS         COSTS

Audits

 2002-6/23157-5	        FY 2001 Financial                 8/29/2002                                                                           24
                        Statement Audit -
                        Management Letter

 2002-10/23163	         Review of Sensitive               6/20/2002
                        Payments for
                        FY 2001

 2002-11/23154	         Audit of PBGC’s Schedules         8/15/2002
                        of Appeal Closings for
                        Fiscal Years 1999 and
                        2000


Evaluations

  2002-9/23167	         Audit Alert Memo –                 5/21/2002
                        PBGC Needs to Require
                        Corrective Action Plans to
                        Address Audit
                        Recommendations

 2002-12/32105	         Semiannual Listing of              7/31/2002
                        Audit Recommendations

2002-13/32106	          Semiannual Report on              9/30/2002
                        Follow-up of Audit
                        Recommendations


* This statistical information is required by section 5(a)(6) of the Inspector General Act of 1978, as amended.




SEPTEMBER 2002                                                                                                                                     PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES

OVERVIEW
        The Inspector General is authorized to receive and investigate complaints from
        PBGC employees, the public, and other sources concerning violations of law,
        rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
        a substantial and specific danger to the public health and safety. Individuals
        may disclose information or make complaints to the Inspector General through
        the OIG "Hotline." (See announcement on back cover page.) The Inspector
        General has a policy to protect the legal rights of whistleblowers and
        complainants. At all times, the Inspector General takes reasonable precautions
        not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, or whether it can be referred to the agency for
       review and corrective action. Allegations designated as priority, e.g., those
       involving criminal violations and sensitive administrative matters, receive
       immediate attention. These investigations use more time and resources, often
       requiring a team approach. To meet these challenges, the OIG has undertaken
       many strategies to responsibly investigate allegations that are brought to us,
       including hiring former federal investigators as contractors. Even with these
       additional contract resources, we have had to cease investigation activities and
       close some cases administratively. Though we have systematically reduced our
       investigative caseload, our limited investigative staff causes an inability to
       investigate allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
        The OIG received seven (7) complaints or allegations, and closed eleven (11)
        investigative cases during the reporting period. As of September 30, 2002, forty-
        six (46) cases remain open (see the summary of investigative activities at page 9).

        Significant time this period was devoted to hiring a new investigator, who began
        in June 2002, and reviewing our oldest inventory of cases to determine whether
        additional investigative work was warranted or they should be closed.

        OIG HOTLINE

        The OIG operates a separate "1-800" hotline telephone number and a Hotline
        post office box. The Hotline telephone is answered by an investigative staff
        assistant for a two-hour period, Monday through Friday; at all other times there
        is a message that provides information about the Hotline service.

        For the period April 1, 2002 through September 30, 2002, we received a total of
        five (5) Hotline inquiries. Two of the five contacts were first-time inquiries
        relating to pension benefit questions, which were referred to the agency for
        action. The OIG provided customer assistance to three (3) individuals who
        contacted our Hotline. We did not open any cases from our Hotline contacts this
        period.



________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION


        FRAUD ALERTS TO PBGC PERSONNEL

        For the first time, we issued fraud alerts to PBGC employees and contractors to
        increase their awareness of various fraud activities and of the OIG’s role in
        preventing and detecting fraud. We developed a colorful Fraud Alert template
        and issued the Alerts through the corporate e-mail. Prior to issuing the first
        alert notifying employees of a current ATM fraud, we notified PBGC’s Executive
        Director of our intention to issue such alerts periodically. He responded with
        full support of our fraud prevention efforts. Our second Fraud Alert explained
        the “4-1-9,” or Nigerian, scams, that several PBGC employees had reported they
        had received. There has been widespread positive response to these first two
        Fraud Alerts.

        SIGNIFICANT INVESTIGATIONS

        PENSION FRAUD CASES

        During this period, we closed four cases that raised issues of fraud relating to
        pension plans and benefits. One of our investigations found that a participant
        had falsely represented to PBGC that he had not received his monthly pension
        benefit. In two other cases involving participants’ monthly benefit checks being
        cashed after their deaths, because the fraud occurred long before it was reported
        to the OIG, there were evidentiary problems and we could not seek prosecution.
        In the fourth case, we provided assistance to local law enforcement in a fraud
        investigation which included pension payments.




________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                           PENSION BENEFIT GUARANTY CORPORATION




                           SUMMARY OF INVESTIGATIVE ACTIVITIES

                              For The Six-month Period Ending

                                   SEPTEMBER 30, 2002



CASE LOAD

                   Pending beginning of period                                              50
                   Opened this period**                                                      7
                   Closed this period                                                       11
                   Pending end of period ***                                                46


WRONGDOING ALLEGED (CASES OPENED)

                   Fraud, Waste & Abuse                                                       2
                   Wrongdoing                                                                 2
                   Improprieties Relating to Pension Benefits                                 2
                   Proactive                                                                  1


RESULTS OF CASES CLOSED

                   Allegation disproved or not substantiated                                  2
                   Assistance to other law enforcement entity                                 1
                   Referred to agency for corrective action                                   3
                   Theft/Perpetrator Unidentified                                             1
                   Matters Referred for Prosecution                                           2
                        Prosecutions/Convictions                                              0
                   Administrative Closing                                                     2




HOTLINE AND MAIL INQUIRIES

                   Received this period                                                       5

                            First time caller referrals to agency                   1
                            Mail referrals to agency                                1
                            OIG Customer Assistance                                 3
                            Cases opened                                            0




** Of the seven new cases opened this period, none resulted from Hotline and mail inquiries.
*** Thirty-nine of the forty-six investigative cases that are open are from prior reporting periods.

________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES

REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

        To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
        General Counsel when the agency is proposing legislative and regulatory
        changes.   During this period, we reviewed and commented on proposed
        amendments to regulations to address: compliance with the Government
        Paperwork Elimination Act’s e-business requirements, and the phase-in of
        PBGC’s guarantee of pension benefits that result from a business shutdown.

OIG AND AGENCY CONSULTATION

        The OIG engaged in several activities this period that included coordination and
        consultation with agency officials to improve agency operations.

        ♦	 We continue to participate in a PBGC multi-departmental team that
           addresses financial management systems integration.

        ♦	 We provided PBGC with a summary of issues relating to that we had
           identified over a period of time. This information was provided to aid PBGC
           in its redesign of its premium accounting system. We are also providing
           consultation services to PBGC on its efforts by serving as a non-voting
           member of its redesign team.

        ♦	 The Acting Inspector General is serving as a resource to PBGC’s Accuracy of
           Benefits Team.

        ♦	 The Acting Inspector General is serving as a resource to PBGC’s Government
           Paperwork Elimination Task Force.

CONGRESSIONAL REQUESTS

        We continue to work with the United States Senate’s Special Committee on
        Aging and the Committee on Small Business and Entrepeneurship on several
        issues impacting on the accuracy of PBGC’s calculation of individual
        participants’ benefits, and PBGC’s budgeting for and funding of its operations.




________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE

        When GAO conducts a study of PBGC operations and issues a report with
        recommendations, the OIG tracks the completion of those recommendations in
        our audit follow-up. During the reporting period, GAO initiated two studies to
        review:

        ♦	 PBGC’s budget structure and compliance with the funding limitations
           established by Congress in its annual appropriations; and

        ♦	 PBGC’s strategic workforce planning to identify elements of successful
           workforce plans, best practices, and lessons learned.




________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION




APPENDIX


                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.


  Inspector General
    Act Reference       Reporting Requirements                                       Page


Section 4 (a) (2)       Review of legislation and regulations.                        10

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.              2 – 4,
                                                                                       6

Section 5 (a) (2)       Recommendations with respect to significant problems,        2 – 4,
                        abuses, and deficiencies.                                      6

Section 5 (a) (3)       Prior significant recommendations on which corrective          4
                        actions has not been completed.                              15-19

Section 5 (a) (4)       Matters referred to prosecutive authorities.                   9

Section 5 (a) (5)       Summary of instances where information was refused.            4


Section 5 (a) (6)       List of audit reports by subject matter, showing dollar        6
                        value of questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.             2 – 4,
                                                                                       6

Section 5 (a) (8)       Statistical table showing number of reports and dollar        13
                        value of questioned costs.

Section 5 (a) (9)       Statistical table showing number of reports and dollar        14
                        value of recommendations that funds be put to better
                        use.

Section 5 (a) (10)      Summary of each audit issued before this reporting           None
                        period for which no management decision was made by
                        end of reporting period.

Section 5 (a) (11)      Significant revised management decisions.                    None

Section 5 (a) (12)      Significant management decisions with which the                5
                        Inspector General disagrees.




________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                           PENSION BENEFIT GUARANTY CORPORATION




                        REPORTS ISSUED WITH QUESTIONED COSTS*
                             For The Six-month Period Ending
                                  SEPTEMBER 30, 2002


                                                            NUMBER
                                                                OF           QUESTIONED        UNSUPPORTED
                                                            REPORTS            COSTS              COSTS

 A.    For which no management decision has
       been made by the commencement of the
       reporting period                                         0                 -0-                -0-

 B.    Which were issued during the reporting
       period                                                   0                 -0-                -0-

       Subtotal ( Add A & B)                                    0                 -0-                -0-

 C.	   For which a management decision was
       made during the reporting period                         0                 -0-                -0-

       (i)      dollar value of disallowed costs                0                 -0-                -0-

       (ii)	    dollar value of costs not
                disallowed                                      0                 -0-               - 0-

 D.    For which no management decision has
       been made by the end of the reporting
       period                                                   0                 -0-                -0-

 E.    Reports for which no management
       decision was made within six months of
       issuance                                                 0                 -0-                -0-




* This statistical information is required by section 5(a)(8) of the Inspector General Act of 1978, as amended.




SEPTEMBER 2002                                                                                      PAGE 13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION




                          REPORTS ISSUED WITH RECOMMENDATIONS

                             THAT FUNDS BE PUT TO BETTER USE*

                               For The Six-month Period Ending

                                    SEPTEMBER 30, 2002



                                                                               NUMBER
                                                                                  OF              DOLLAR
                                                                               REPORTS            VALUE

 A.    For which no management decision has been made by the
       commencement of the reporting period                                        0                 -0-

 B.    Which were issued during the reporting period                               0                 -0-

       Subtotal ( Add A & B)                                                       0                 -0-

 C.	   For which a management decision was made during the
       reporting period                                                            0                 -0-

       (i)         dollar value of recommendations that were agreed
                   to by management                                                0                 -0-

              --   based on proposed management action                             0                 -0-

              --   based on proposed legislative action                            0                 -0-

       (ii)        dollar value of recommendations that were not
                   agreed to by management                                         0                 -0-

 D.    For which no management decision has been made by the
       end of the reporting period                                                 0                 -0-

       Reports for which no management decision was made
       within six months of issuance                                               0                 -0-




* This statistical information is required by section 5(a)(9) of the Inspector General Act of 1978, as amended.




SEPTEMBER 2002                                                                                      PAGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                                             PENSION BENEFIT GUARANTY CORPORATION

                                                                   OPEN RECOMMENDATIONS
                                                                 For The Six-month Period Ending
                                                                      SEPTEMBER 30, 2002

Report                               Report             Date         Recommendation                                   Recommendation
                                     Number            Issued            Number

Evaluation of the Premium             97-8/           8/26/97            IRMD-100           Complete the questionnaires contained in the PAS documentation
Accounting System                     23097                                                 and assess the results for adherence to relevant circulars and
Computer Platform                                                                           guidelines.

                                                                         IRMD-101           Conduct periodic tests of the PAS Disaster Recovery Plan,
                                                                                            document the test results, and assign responsibility for updating
                                                                                            the plan as needed.

                                                                         IRMD-121           Review the use of external programs providing additional edits and
                                                                                            validations and incorporate them into the PAS production
                                                                                            environment, as appropriate.

Audit of Fiscal Year 1996            97-23/           9/23/97            FOD-263            Enforce policies and procedures to record adjustments to actual
Financial Statements -               23110-3                                                benefit payment amounts disbursed by IPAs, within one month.
Management Letter

Audit of the Pension Benefit          98-3/           3/23/98            FOD-268            Complete its efforts to integrate its financial management systems,
Guaranty Corporation’s               23126-2                                                in accordance with OMB Circular A-127 and its Five-Year
Fiscal Years 1997 and 1996                                                                  Financial Management Systems Plan.
Financial Statements
                                                                          IRMD-92           Follow the formal systems development life cycle methodology on
                                                                                            systems acquisition or development projects, and require the same
                                                                                            of contractors.

                                                                          IRMD-93           Identify specific criteria to allow PBGC to effectively monitor
                                                                                            systems outsourcing relationships.

Improvements Are Needed               99-2/           3/2/99              IOD-158           Establish timeliness performance measures for principal activities
To Achieve Better Efficiency         23128-1                                                of the benefit determination process.
And Effectiveness In
PBGC’s Benefit                                                            IOD-160           Take reasonable steps to identify whether there are participants
Determination Process                                                                       who have not received an IDL.



∗ This statistical information is required by section 5(a)(3) of the Inspector General Act of 1978, as amended.




_________________________________________________________________________________________________________________________________________________
SEPTEMBER 2002                                                                                                                         P AGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                               PENSION BENEFIT GUARANTY CORPORATION

                                                          OPEN RECOMMENDATIONS

                                                        For The Six-month Period Ending

                                                             SEPTEMBER 30, 2002


Report                          Report          Date       Recommendation                              Recommendation
                                Number         Issued          Number

                                                               IOD-164	       Review actuarial peer reviews, controlled group and net worth
                                                                              audits, and the reconciliation of plan assets to determine whether
                                                                              redundant activities exist.

                                                               IOD-165	       Determine whether redundant activities identified should be
                                                                              eliminated.

                                                               IOD-167	       Establish a policy requiring that IOD’s core curriculum training is
                                                                              mandatory.

                                                               IOD-168	       Enforce compliance with time accounting requirements
                                                                              established in IOD’s Procedures Manual.

Audit of the Pension Benefit    99-7/         3/3/99          FASD-112
       Conduct a Business Impact Analysis to validate critical workloads.
Guaranty Corporation’s         23132-2
                                       In addition, recovery priorities should be established and
Fiscal Years 1998 and 1997
                                                   documented for mission critical systems. IRMD can serve as the
Financial Statements
                                                         central point for developing these priorities and help facilitate and
                                                                              coordinate the efforts required to complete this process.

                                                              FASD-114        Develop detailed procedures for the recovery of PBGC operations.

                                                              FASD-115        Test the contingency/disaster recovery procedures on a regular
                                                                              basis, using sufficiently detailed test plans and scenarios. Review
                                                                              and incorporate test results, as appropriate, in the
                                                                              contingency/disaster recovery plan in a timely manner.

                                                               IOD-151        Perform an analysis of data integrity within the PRISM database
                                                                              and develop a formal corrective action plan.

                                                               IOD-152        Analyze and improve system edits and processing controls within
                                                                              PRISM to minimize erroneous data input and data processing.
                                                                              Design and place in operation an exception reporting mechanism
                                                                              to mitigate the risk of unauthorized transactions processing.

                                                              IRMD-104        Update the existing contingency/disaster recovery plan to reflect
                                                                              the current computing environment at PBGC.




_________________________________________________________________________________________________________________________________________________
SEPTEMBER 2002                                                                                                                         P AGE 16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                               PENSION BENEFIT GUARANTY CORPORATION

                                                          OPEN RECOMMENDATIONS

                                                        For The Six-month Period Ending

                                                             SEPTEMBER 30, 2002


Report                          Report          Date       Recommendation                               Recommendation
                                Number         Issued          Number

Fiscal Year 1998 Financial      99-8/          9/23/99         FOD-274        Enhance financial reporting controls surrounding PAS to improve
Statement Audit-               23132-3                                        the system’s ability to accurately track premiums receivable on a
Management Report                                                             plan basis.


                                                               FOD-275        Analyze the existing year-end processes surrounding PAS and
                                                                              identify improvements that will reduce the necessity of manual
                                                                              adjustments, validity testing, and reclassifications at year-end.

                                                               IOD-169        Enforce existing IOD policies and procedures requiring that
                                                                              participants’ files contain complete information critical for the
                                                                              benefit payments and the PVFB liability calculation.

                                                               IOD-172        Enforce policies and procedures that require participants’ records
                                                                              in PRISM contain information that is adequately supported in IPS.

                                                               IOD-175        Delete invalid duplicate participant records in PRISM and
                                                                              implement necessary controls to prevent the creation of duplicate
                                                                              records in future processing.

                                                               IOD-181        Establish a formal reconciliation process for the plans assumed
                                                                              from the prior paying agents whereby reconciliations are reviewed
                                                                              and approved by an appropriate level of management.

Audit of the Pension Benefit   2000-7/         3/31/00        IRMD-118        Finalize accreditation and certification of systems.
Guaranty Corporation’s         23138-2
Fiscal Years 1999 and 1998
Financial Statements

Fiscal Year 1999 Financial     2000-8/         8/21/00         FOD-279        Assign responsibility to the General Accounting Branch to
Statement Audit-               23138-3                                        reconcile monthly the PD records and FARS records, and
Management Letter                                                             document supervisory review of the monthly reconciliations.

                                                               FOD-281        Record the amounts identified by the Premium Compliance
                                                                              Reviews as due to PBGC in conformity with GAAP and in a timely
                                                                              manner.




_________________________________________________________________________________________________________________________________________________
SEPTEMBER 2002                                                                                                                         P AGE 17
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                               PENSION BENEFIT GUARANTY CORPORATION

                                                          OPEN RECOMMENDATIONS

                                                        For The Six-month Period Ending

                                                             SEPTEMBER 30, 2002


Report                          Report          Date       Recommendation                               Recommendation
                                Number         Issued          Number

Evaluation of the Premium      2001-2/        1/24/01          CCRD-5	        Ensure that all the PCR reviews performed by Contractors comply
Compliance Review               23142                                         with the Premium Compliance Review Procedures Manual.
Program

Audit of the Pension Benefit   2001-9/        3/29/01          IOD 193	       Reassess the level of access to the PBGC’s paying agent Payment
Guaranty Corporation’s         23149-2                                        and Ledger files that is given to the Management Information
Fiscal Years 2000 and 1999                                                    Specialist. The PBGC’s paying agent files should not be directly
Financial Statements                                                          modified using SQL queries and any changes made to the PBGC’s
                                                                              paying agent files should be re-submitted for authorization.

                                                               IOD-194	       Add additional integrity checks to verify the integrity of the data
                                                                              received by PBGC’s paying agent.

                                                               IOD-195	       Changes to the information used to process customer payments
                                                                              should be authorized before being sent to PBGC’s paying agent or
                                                                              at a minimum it should be logged and reviewed regularly.

                                                               IOD-196	       Changes made by the Data Working Group should be sent back
                                                                              for re-authorization.

                                                               IOD-197	       Reassess use of the Authorizer Administration inclusion function.
                                                                              This functionality should be limited to special usage, logged and
                                                                              reviewed by PBGC management.

                                                               IOD-198	       Segregate duties of individuals processing PBGC’s paying agent
                                                                              payments and PBGC’s paying agent ledger files.

                                                               IOD-199	       Independently review changes made by the Document
                                                                              Management Center supervisor before they are submitted to
                                                                              OASD.

Fiscal Year 2000 Financial     2001-13/        9/17/01        IRMD-128        Verify that systems access is being properly authorized, in
Statement Audit-               23149-4                                        accordance with PBGC’s policies and procedures, prior to granting
Management Report                                                             user access.




_________________________________________________________________________________________________________________________________________________
SEPTEMBER 2002                                                                                                                         P AGE 18
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                              PENSION BENEFIT GUARANTY CORPORATION

                                                          OPEN RECOMMENDATIONS

                                                        For The Six-month Period Ending

                                                             SEPTEMBER 30, 2002


Report                          Report          Date       Recommendation                              Recommendation
                                Number         Issued          Number

                                                              IRMD-129	       Verify that user access is being terminated properly and timely
                                                                              upon an individual’s termination, in accordance with PBGC’s
                                                                              policies and procedures.

                                                              IRMD-130        Verify that documentation, supporting granting and terminating
                                                                              users’ access to the LAN is properly maintained, in accordance
                                                                              with PBGC’s policies and procedures.

Audit of the Pension Benefit   2002-3/        3/29/02         FASD-117        Ensure that each department document specific procedures such
Guaranty Corporation’s         23157-2                                        as manual/peripheral processing procedures for restoring
Fiscal Years 2001 and 2000                                                    applications and operations as part of its COOP, including specific
Financial Statements                                                          references to critical data files required.

                                                              FASD-118	       Include requirements for the use of alternate facilities in each of
                                                                              the COOP plans, if needed, as well as instructions for staff and
                                                                              contractors as to their role in the recovery process and where they
                                                                              would perform their duties.




_________________________________________________________________________________________________________________________________________________
SEPTEMBER 2002                                                                                                                         P AGE 19
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY

The following defines the terms used in this report.


Questioned Cost	        A cost the OIG has questioned because of an alleged
                        violation of law, regulations, contract, grant, cooperative
                        agreement, or other agreement or document governing the
                        expenditure of funds; such cost is not supported by
                        adequate documentation; or the expenditure of funds for the
                        intended purpose is unnecessary or unreasonable.

Unsupported Cost	       A cost the OIG has questioned because of a lack of adequate
                        documentation at time of the audit.

Disallowed Cost	        A questioned cost that management, in a management
                        decision, has sustained or agreed should not be charged to
                        the government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation
Better Use	        that could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency
                   measures.

Management              Management's evaluation of audit findings and
Decision	               recommendations and issuance of a final decision
                        concerning management's response to such findings and
                        recommendations.

Final Action	           The completion of all management actions -- that are
                        described in a management decision -- with respect to audit
                        findings and recommendations. If management concluded
                        no actions were necessary, final action occurs when a
                        management decision is issued.


Misconduct	             Action of employees or contractors that violates law, rules,
                        or regulations for which corrective action is warranted.




________________________________________________________________________________________________
SEPTEMBER 2002                                                                        PAGE 20
IF YOU WANT TO REPORT OR DISCUSS CONFIFENTIALLY
ANY INSTANCE OF MISCONDUCT, FRAUD, WASTE, ABUSE,

OR MISMANEGEMENT, PLEASE CONTACT THE   OFFICE OF
INSPECTOR GENERAL.

You can telephone:

         The Inspector General’s HOTLINE

                    1-800-303-9737


Or you can write:

  Pension Benefit Guaranty Corporation

       Office of Inspector General

             P.O. Box 14640

     Washington, D.C. 20044-4640

